App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

Nos. 17-30898, 17-30901, 17-30999
-----------------------------------------------------------------------

MICHAEL W. GAHAGAN,
Plaintiff-Appellant,
v.
UNITED STATES CITIZENSHIP &
IMMIGRATION SERVICES,
Defendant-Appellee.
____________________
MICHAEL GAHAGAN,
Plaintiff-Appellant,
v.
UNITED STATES DEPARTMENT OF JUSTICE;
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY; UNITED STATES IMMIGRATION &
CUSTOMS ENFORCEMENT; EXECUTIVE OFFICE
OF IMMIGRATION REVIEW, UNITED STATES
DEPARTMENT OF JUSTICE,
Defendants-Appellees.
_____________________
MICHAEL W. GAHAGAN,
Plaintiff-Appellant,
v.

App. 2
UNITED STATES CITIZENSHIP & IMMIGRATION
SERVICES; U.S. CUSTOMS & BORDER PROTECTION,
Defendants-Appellees.
-----------------------------------------------------------------------

Appeals from the United States District Court
for the Eastern District of Louisiana
-----------------------------------------------------------------------

(Filed Dec. 20, 2018)
Before DAVIS, COSTA, and OLDHAM, Circuit Judges.
ANDREW S. OLDHAM, Circuit Judge:
The question presented is whether attorneys appearing pro se can recover fees under the Freedom of
Information Act (“FOIA”). The district court held no.
We affirm.
I.
A.
Michael W. Gahagan is an immigration attorney.
He uses FOIA to obtain government documents. In
these consolidated cases, he requested documents from
various federal agencies. Gahagan requested some of
these documents to assist immigration clients. Others
he requested for personal reasons. He made each request in his own name.
Gahagan was unsatisfied with the Government’s
response to his requests. So he filed three separate pro
se lawsuits. In each case, Gahagan was considered the

App. 3
prevailing party and moved for an award of costs and
fees. Each district judge awarded Gahagan costs. But
each judge also held Gahagan was ineligible for attorney fees under FOIA.1 Gahagan appealed each denial
of fees.
B.
“Our basic point of reference when considering the
award of attorney’s fees is the bedrock principle known
as the American Rule: Each litigant pays his own attorney’s fees, win or lose, unless a statute or contract
provides otherwise.” Baker Botts L.L.P. v. ASARCO
LLC, 135 S. Ct. 2158, 2164 (2015). Courts “have recognized departures from the American Rule only in ‘specific and explicit provisions for the allowance of
attorneys’ fees under selected statutes.’ ” Ibid. (quoting
Alyeska Pipeline Serv. Co. v. Wilderness Soc’y, 421 U.S.
240, 260 (1975)). The Supreme Court analyzes a statute’s specificity and explicitness in the context of a particular fee request. That a statute is sufficiently
specific and explicit to authorize one type of fee award
does not make it sufficiently specific and explicit to authorize another type of fee award. See id. at 2165.

1

There are at least eleven competing terms we could use instead of “attorney fees.” See Haymond v. Lundy, 205 F. Supp. 2d
403, 406 n.2 (E.D. Pa. 2002). But “[i]n line with the form used in
the statute we are interpreting, we will use ‘attorney fees’ in this
case, except where quoting other authorities” or referring to
awards under other statutes. Stallworth v. Greater Cleveland
Reg’l Transit Auth., 105 F.3d 252, 253 n.1 (6th Cir. 1997); see 5
U.S.C. § 552(a)(4)(E)(i) (“attorney fees”).

App. 4
FOIA authorizes courts to “assess against the
United States reasonable attorney fees and other litigation costs reasonably incurred in any case under this
section in which the complainant has substantially
prevailed.” 5 U.S.C. § 552(a)(4)(E)(i). By authorizing a
court to “assess . . . reasonable attorney fees,” that provision overcomes the American Rule in at least some
circumstances. In this particular circumstance, however, the question is whether FOIA specifically and explicitly authorizes a fee award to an attorney
appearing pro se.
Three precedents bear on that question. The first
is our decision in Cazalas v. DOJ, 709 F.2d 1051 (5th
Cir. 1983). In that case, we decided “a litigant attorney
represent[ing] herself or himself ” is eligible for “an
award of attorney fees under the FOIA.” Id. at 1057.
Judge Garwood dissented. Circuit precedent denies
fees to “a nonattorney pro se litigant,” and Judge Garwood did “not believe that Congress intended to discriminate between pro se FOIA litigants solely on the
basis of whether they were licensed to practice law.” Id.
at 1059 (Garwood, J., concurring in part and dissenting
in part).
The second key precedent is Kay v. Ehrler, 499 U.S.
432 (1991). Kay involved 42 U.S.C. § 1988, which authorizes an award of “a reasonable attorney’s fee” to
“the prevailing party” in a civil rights case. In Kay, the
Court rejected “[a] rule that authorizes awards of counsel fees to pro se litigants—even if limited to those who
are members of the bar,” for fear it “would create a disincentive to employ counsel whenever such a plaintiff

App. 5
considered himself competent to litigate on his own behalf.” 499 U.S. at 438. The Court instead emphasized
that “[t]he statutory policy of furthering the successful
prosecution of meritorious claims is better served by a
rule that creates an incentive to retain counsel in every
such case.” Ibid. Therefore, the Supreme Court held “a
pro se litigant who is also a lawyer may [not] be
awarded attorney’s fees.” Id. at 435.
The third precedent is Texas v. ICC, 935 F.2d 728
(5th Cir. 1991). In ICC, “Texas sued the Interstate
Commerce Commission under [FOIA] to force the ICC
to disclose certain documents.” Id. at 729. Texas prevailed. The district court nonetheless denied its motion
for attorney fees. The ICC defended that result by arguing we had “previously held that some classes of
‘complainants’—namely, pro se plaintiffs—are not eligible for fee-shifting.” Id. at 731. The ICC contended
legislative history similarly prohibited states from recovering fees. Ibid. We disagreed. After all, Cazalas
had “held that lawyers who represent themselves in
FOIA actions may recover under the fee-shifting provision.” Ibid. (citing Cazalas, 709 F.2d at 1055–57). We
ultimately concluded “courts can in appropriate circumstances award attorneys fees to states.” Id. at 733.
In the consolidated cases before us today, three different district judges rejected Gahagan’s claims for
fees. The lead opinion, by Judge Feldman, is thoughtful
and well-reasoned. It notes every other court of appeals to consider the question after Kay has held FOIA
disallows prevailing-party fees for pro se attorneys.
And it notes ICC—which we decided just three months

App. 6
after Kay—says nary a word about the Supreme
Court’s unanimous holding in that case. Judge Feldman therefore followed Kay and denied Gahagan’s fee
request. See Gahagan v. U.S. Citizenship & Immigration Servs., No. 16-cv-15438, 2017 WL 4003851, at *3–
4, *7 (E.D. La. Sept. 12, 2017). Two other district judges
rejected Gahagan’s requests for the same reasons. See
Gahagan v. U.S. Citizenship & Immigration Servs., No.
15-cv-6218, 2017 WL 6540409, at *1 (E.D. La. Dec. 21,
2017); Gahagan v. DOJ, No. 13-cv-5526, 2017 WL
4168409, at *1 (E.D. La. Sept. 20, 2017). Our review is
de novo. See ICC, 935 F.2d at 730.
II.
Everyone agrees we must reverse if Cazalas remains binding precedent. Whether Cazalas is still
binding turns on first- and second-order questions under the rule of orderliness. The first question is
whether ICC requires us to follow Cazalas. It does not.
The second question is whether Kay requires us to
abandon Cazalas. It does.
A.
In considering these questions, we follow the wellsettled rule of orderliness: “[T]hree-judge panels . . .
abide by a prior Fifth Circuit decision until the decision is overruled, expressly or implicitly, by either the
United States Supreme Court or by the Fifth Circuit
sitting en banc.” Cent. Pines Land Co. v. United States,
274 F.3d 881, 893 (5th Cir. 2001) (quotation omitted).

App. 7
Fifth Circuit precedent is implicitly overruled if a subsequent Supreme Court opinion “establishes a rule of
law inconsistent with” that precedent. Gonzalez v. Thaler, 623 F.3d 222, 226 (5th Cir. 2010); see also Carter v.
S. Cent. Bell, 912 F.2d 832, 840 (5th Cir. 1990) (requiring adherence to a prior panel’s interpretation “unless
that interpretation is irreconcilable with” a later Supreme Court decision). “[F]or a Supreme Court decision to override a Fifth Circuit case, the decision must
unequivocally overrule prior precedent; mere illumination of a case is insufficient.” United States v. Petras,
879 F.3d 155, 164 (5th Cir. 2018) (quotation omitted).
The question at the heart of this case is whether
Cazalas remains precedential after Kay. Before we
reach that question, however, we must satisfy ourselves that ICC did not already answer it. After all,
“whether [Cazalas] has been abrogated is itself a determination subject to the rule of orderliness.” Stokes
v. Sw. Airlines, 887 F.3d 199, 205 (5th Cir. 2018). So if
a prior panel already held Cazalas survived Kay, we’d
be duty-bound to say the same.
ICC, however, said no such thing. At no point did
ICC even cite Kay, much less analyze whether it overruled Cazalas. That is hardly surprising. Although one
party cited Kay in a letter filed under Federal Rule of
Appellate Procedure 28(j), neither party argued Kay
had overruled Cazalas. And ICC considered an altogether different question from both Kay and Cazalas—
namely, whether a state could recover fees. All ICC did
was cite Cazalas on the way to answering that question.

App. 8
An opinion restating a prior panel’s ruling does
not sub silentio hold that the prior ruling survived an
uncited Supreme Court decision. See Cooper Indus.,
Inc. v. Aviall Servs., Inc., 543 U.S. 157, 170 (2004) (explaining decisions are not precedent on “[q]uestions
which merely lurk in the record” (quotation omitted));
Brecht v. Abrahamson, 507 U.S. 619, 631 (1993) (explaining an opinion is not binding precedent on an issue “never squarely addressed” even if the opinion
“assumed” one resolution of the issue); cf. Wilson v. Taylor, 658 F.2d 1021, 1034–35 (5th Cir. Unit B Oct. 1981)
(refusing to apply the rule of orderliness to a Fifth Circuit decision that conflicted with an earlier, uncited Supreme Court opinion). Therefore, neither ICC nor any
other post-Kay decision of this Court triggers the rule
of orderliness. See Chin v. U.S. Dep’t of Air Force, No.
99-31237, 2000 WL 960515, at *1 (5th Cir. June 15,
2000) (per curiam) (declining to “decide whether Cazalas . . . is rendered moribund by Kay”).
B.
The question then is whether Cazalas survives of
its own accord. Whether a Supreme Court decision implicitly overrules a prior Fifth Circuit decision depends
on context. That two decisions involve different statutes is not dispositive. Sometimes a Supreme Court decision involving one statute implicitly overrules our
precedent involving another statute. See Stokes, 887
F.3d at 204; Hoskins v. Bekins Van Lines, 343 F.3d 769,
775 (5th Cir. 2003). Sometimes it does not. See United
States v. Alcantar, 733 F.3d 143, 146 (5th Cir. 2013);

App. 9
Jacobs v. Nat’l Drug Intelligence Ctr., 548 F.3d 375, 378
(5th Cir. 2008).2 The overriding consideration is the
similarity of the issues decided. Compare Stokes, 887
F.3d at 204 (refusing to adhere to a Fifth Circuit decision because the issues were similar), with Petras, 879
F.3d at 164–65 (adhering to a Fifth Circuit decision because the issues were dissimilar).
Here, Cazalas and Kay confronted very similar issues. They both interpreted the word “attorney” in a
statute authorizing attorney fees. See 5 U.S.C.
§ 552(a)(4)(E)(i) (“attorney fees”); 42 U.S.C. § 1988 (“attorney’s fee”). Cazalas itself recognized the similarity
of the statutes by discussing precedent interpreting
§ 1988 in its analysis of FOIA. See Cazalas, 709 F.2d at
1056 (citing Ellis v. Cassidy, 625 F.2d 227 (9th Cir.
1980)).
The Supreme Court has repeatedly instructed us
to apply consistent interpretations to federal feeshifting statutes. See Buckhannon Bd. & Care Home,
Inc. v. W. Va. Dep’t of Health & Human Res., 532 U.S.
598, 603 n.4 (2001) (“We have interpreted these feeshifting provisions consistently, and so approach the
2

We do not understand Diaz-Esparza v. Sessions to suggest
Supreme Court precedent never implicitly overrules Fifth Circuit
precedent “involv[ing] different statutory provisions.” 697 F.
App’x 338, 340 (5th Cir. 2017) (per curiam). Such a ruling would
conflict with the circuit precedent cited above, precedent DiazEsparza did not cite. Regardless, as an unpublished opinion vacated by the Supreme Court, Diaz-Esparza is doubly nonprecedential. See 5TH CIR. R. 47.5.4; Diaz-Esparza v. Sessions, 138
S. Ct. 1986 (2018) (granting certiorari, vacating, and remanding
in light of Sessions v. Dimaya, 138 S. Ct. 1204 (2018)).

App. 10
nearly identical provisions at issue here.” (citation
omitted)); City of Burlington v. Dague, 505 U.S. 557,
562 (1992) (“This language is similar to that of many
other federal fee-shifting statutes; our case law construing what is a ‘reasonable’ fee applies uniformly to
all of them.” (citation omitted)); Indep. Fed’n of Flight
Attendants v. Zipes, 491 U.S. 754, 758 n.2 (1989) (“We
have stated in the past that fee-shifting statutes’ similar language is a strong indication that they are to be
interpreted alike.” (quotation omitted)); Hensley v. Eckerhart, 461 U.S. 424, 433 n.7 (1983) (“The standards set
forth in this opinion are generally applicable in all
cases in which Congress has authorized an award of
fees to a ‘prevailing party.’ ”).3
All of our sister circuits have heeded those instructions. Before Kay, the eligibility of pro se attorneys for
fee awards under FOIA split the circuits. Compare Aronson v. HUD, 866 F.2d 1, 5 (1st Cir. 1989), and Falcone
v. IRS, 714 F.2d 646, 646 (6th Cir. 1983), with Cazalas,
3

Gahagan notes this Court has described “[t]he history, language, and purpose of ” FOIA as “differ[ing] significantly from
those of the civil rights statutes” and treated “decisions under one
of the statutes [as] inapposite to cases arising under the other.”
Cofield v. City of Atlanta, 648 F.2d 986, 988 (5th Cir. Unit B June
1981). But Cofield contrasted FOIA and § 1988—over Judge
Clark’s dissent—to distinguish a D.C. Circuit opinion that was
itself overruled by Kay. See Benavides v. Bureau of Prisons, 993
F.2d 257, 259–60 (D.C. Cir. 1993) (recognizing Kay overruled Cox
v. DOJ, 601 F.2d 1 (D.C. Cir. 1979)). In any event, to the extent
Cofield suggests decisions interpreting § 1988 do not inform our
interpretation of FOIA’s fee-shifting provision, it does not survive
the subsequent Supreme Court decisions interpreting all federal
fee-shifting provisions consistently.

App. 11
709 F.2d at 1057, and Cuneo v. Rumsfeld, 553 F.2d
1360, 1367 (D.C. Cir. 1977). Since Kay, however, every
circuit to consider the issue has applied Kay to FOIA.
See Pietrangelo v. U.S. Army, 568 F.3d 341, 344–45 (2d
Cir. 2009) (per curiam); Burka v. HHS, 142 F.3d 1286,
1290 (D.C. Cir. 1998); Ray v. DOJ, 87 F.3d 1250, 1252
(11th Cir. 1996); see also Searcy v. Soc. Sec. Admin., No.
91-4181, 1992 WL 43490, at *1, *6 (10th Cir. Mar. 2,
1992). Perhaps most powerfully, the D.C. Circuit expressly abandoned its pre-Kay FOIA precedent in light
of Kay. See Burka, 142 F.3d at 1290.
Were we to hold that a pro se attorney is eligible
for fees, we would be the only court of appeals to do so
after Kay. “We are always chary to create a circuit
split,” United States v. Graves, 908 F.3d 137, 142 (5th
Cir. 2018) (quotation omitted), including when applying the rule of orderliness. See Stokes, 887 F.3d at 201,
205. We refuse to create one here.
Of course, the principle that federal fee-shifting
statutes are interpreted consistently is not limitless.
We would not apply it when statutes have materially
different texts. See Buckhannon, 532 U.S. at 603 n.4
(noting the provisions at issue were “nearly identical”);
Dague, 505 U.S. at 562 (similar); Indep. Fed’n of Flight
Attendants, 491 U.S. at 758 n.2 (similar).4 But there is

4

For example, after the Supreme Court rejected the “catalyst theory” of “prevailing party” status, Congress amended
FOIA to make it easier for a plaintiff to recover fees. See Batton
v. IRS, 718 F.3d 522, 524–26, 525 n.2 (5th Cir. 2013); 5 U.S.C.
§ 552(a)(4)(E)(ii) (“substantially prevailed”). Thus, courts must

App. 12
no textual difference suggesting a prevailing pro se attorney is eligible for an award of fees under FOIA but
not § 1988. On that issue, Kay interpreted text materially identical to the text of FOIA. Compare 5 U.S.C.
§ 552(a)(4)(E)(i) (“reasonable attorney fees”), with 42
U.S.C. § 1988 (“a reasonable attorney’s fee”).
Thus, the background principle—federal feeshifting statutes should be interpreted consistently—
applies with full force to the eligibility of pro se attorneys for fee awards. For that reason, Kay provided
more than “mere illumination”; it “unequivocally overrule[d]” Cazalas. Petras, 879 F.3d at 164 (quotation
omitted). After Kay, Cazalas no longer represents binding precedent on the eligibility of pro se attorneys to
recover fee awards under FOIA.
III.
The parties appropriately focus on precedent. As
do we. It is nonetheless appropriate to note FOIA’s text
supports the result precedent commands. To paraphrase Chief Justice Marshall, it is after all a statute
we are expounding. Cf. McCulloch v. Maryland, 17 U.S.
(4 Wheat.) 316, 407 (1819); BedRoc Ltd. v. United
States, 541 U.S. 176, 183 (2004) (plurality opinion)
(“[O]ur inquiry begins with the statutory text, and
ends there as well if the text is unambiguous.”).

interpret FOIA and other fee-shifting statutes differently in that
regard.

App. 13
Kay considered the meaning of “attorney” in
§ 1988’s use of “a reasonable attorney’s fee.” 499 U.S.
at 435–36. As noted above, FOIA is materially identical in that regard. See 5 U.S.C. § 552(a)(4)(E)(i) (“reasonable attorney fees”). But “attorney” is not the only
relevant word in FOIA.
Unlike § 1988, FOIA limits awards to those fees
“reasonably incurred.” 5 U.S.C. § 552(a)(4)(E)(i) (“reasonable attorney fees and other litigation costs reasonably incurred”); see also Barrett v. Bureau of Customs,
651 F.2d 1087, 1089 (5th Cir. Unit A July 1981)
(“ ‘[R]easonably incurred’ can and does modify the
larger phrase ‘reasonable attorney fees and other litigation costs.’ ”). The “general rule” is that “fees are ‘incurred’ when the litigant has a legal obligation to pay
them.” United States v. Claro, 579 F.3d 452, 464 (5th
Cir. 2009). Because Gahagan had no legal obligation to
pay himself, he did not “incur” any attorney fees under
the general rule. See id. at 465; Cazalas, 709 F.2d at
1059 (Garwood, J., concurring in part and dissenting
in part) (“Attorney ‘fees’ are not generated by a person
doing something for himself or herself; and ‘incurred’
likewise imports a relationship to one or more others.”).
Therefore, the textual argument for denying fee
awards to pro se attorneys is even stronger under
FOIA than under § 1988, which does not contain the
independent requirement that fees be “incurred.” As
we noted in Claro, other courts “have recognized exceptional situations for which an award of attorney’s fees
is not contingent upon an obligation to pay counsel,”

App. 14
despite the “incurred” requirement. 579 F.3d at 465.
But these exceptions—based on “legislative history”
regarding pro bono representation and “policy reasons”
related to a litigant’s insurance coverage, id. at 465–
66—would not apply to Gahagan in any event. Accordingly, we need not decide their validity here. See id. at
467–68 (concluding the exceptions did not apply without resolving their validity).
*

*

*

In the end, we have (1) Kay’s ruling that pro se attorneys cannot recover fees under § 1988; (2) Supreme
Court instructions that federal fee-shifting statutes
should be interpreted consistently; (3) the uniform
agreement of our sister circuits that pro se attorneys
cannot recover attorney fees under FOIA after Kay;
and (4) statutory text supporting that result. For these
reasons, we hold pro se attorneys are ineligible for fee
awards under FOIA. The judgments are AFFIRMED.

App. 15
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
MICHAEL W. GAHAGAN

CIVIL ACTION

v.

NO. 16-15438

UNITED STATES CITIZENSHIP
AND IMMIGRATION SERVICES

SECTION “F”

ORDER AND REASONS
(Filed Sep. 12, 2017)
Before the Court are objections by United States
Citizenship and Immigration Services (USCIS) to the
magistrate judge’s Report and Recommendation that
the plaintiff shall be awarded attorney’s fees and costs
in this Freedom of Information Act litigation. For the
reasons that follow, the USCIS’s objection that the Report errs in allowing attorney’s fees under FOIA for a
pro se attorney is SUSTAINED, but USCIS’s objection
concerning the Report’s public benefit finding and in
weighing the entitlement factors is OVERRULED, and
USCIS’s final objection seeking a more substantial reduction in the plaintiff ’s fee award is MOOT. Accordingly, the Court hereby REJECTS in part and ADOPTS
in part the Report and Recommendation. The plaintiff
may recover $451.47 in costs.
Background
This Freedom of Information Act lawsuit arises
out of a government agency’s failure to adequately
search for and produce a single agency record requested by the plaintiff in connection with the

App. 16
plaintiff ’s client’s ongoing immigration removal proceeding. This Order and Reasons assumes familiarity
with extensive prior proceedings. After being ordered
to conduct an adequate search for Michael Gahagan’s
client’s I-485 Receipt Notice (I-797C Notice of Action),
the United States Citizenship and Immigration Services (USCIS) ultimately produced to Mr. Gahagan
what USCIS insists is a “recreated” receipt notice. After Mr. Gahagan acknowledged that he had “no objection to accepting [the I-797C Receipt Notice] produced”
by USCIS (the so-called regenerated receipt notice),
the Court denied as moot the only remaining portion
of plaintiff ’s motion for summary judgment (that is,
the only issue that was under submission after the
Court granted, in part, the plaintiff ’s motion for summary judgment on the issue of the agency’s inadequate
search). See Order and Reasons dtd. 12/22/16. The
Court then denied USCIS’s motion for reconsideration,
denied as moot USCIS’s motion for summary judgment, and referred to the magistrate judge the plaintiff ’s motion for attorney’s fees. See Order and Reasons
dtd. 3/8/17.
Magistrate Judge van Meerveld issued a thorough
and considered Report and Recommendation, recommending that the Court grant in part the motion for
attorney’s fees and costs, ultimately recommending
that the Court award attorney’s fees in an amount less
than that requested by the plaintiff. In its objections to
the Report and Recommendation, USCIS urges the

App. 17
Court to sustain its objections, reject the Report, and
deny Gahagan’s motion for attorney’s fees.1
I.
Pursuant to Rule 72(a) and 28 U.S.C. § 636(b)(1),
USCIS requests that the Court set aside Magistrate
Judge van Meerveld’s April 27, 2017 Report and Recommendation, in which the plaintiff ’s motion for
attorney’s fees and costs was granted in part, recommending that the plaintiff be awarded $8,867.47 (inclusive of $451.47 in costs).
The Court referred Gahagan’s motion for attorney’s fees to Magistrate Judge van Meerveld pursuant
to Rule 72(b) of the Federal Rules of Civil Procedure
and 28 U.S.C. § 636(b)(1). Once a party files specific objections, as USCIS has done here, “[t]he district judge
must determine de novo any part of the magistrate
judge’s disposition that has been properly objected to.”
Fed. R. Civ. P. 72(b)(3). In resolving objections, the
Court “may accept, reject, or modify, in whole or in part,
the findings or recommendations made by the magistrate judge.” 28 U.S.C. § 636(b)(1).
II.
A.
USCIS presents four objections to Magistrate
Judge van Meerveld’s Report & Recommendation:
1

Mr. Gahagan filed a response to USCIS’s objections, and
USCIS filed reply papers.

App. 18
(1) The Report errs in allowing attorney’s fees under
FOIA for a pro se attorney. (2) Gahagan is not eligible
for attorney’s fees under FOIA. (3) The Report errs in
finding the existence of a public benefit and in weighing the entitlement factors. (4) The Report errs in reducing Gahagan’s fee award by only 20% given his
clear absence of billing judgment. USCIS concedes that
its second objection is controlled by this Court’s prior
denial of USCIS’s motion to reconsider and motion for
summary judgment; therefore, USCIS’s second objection is preserved for appellate purposes, but the Court
need only address its three remaining objections.
B.
It is undisputed that, under FOIA, the Court “may
assess against the United States reasonable attorney
fees and other litigation costs reasonably incurred in
any case under this section in which the complainant
has substantially prevailed.” 5 U.S.C. § 552(a)(4)(E)(i).
The magistrate judge correctly observes, and neither
side objects, that courts interpret this permissive, statutory language as creating a two-pronged inquiry into
whether the complainant is both (1) eligible for attorney’s fees because he has substantially prevailed and
(2) entitled to attorney’s fees considering “a variety of
factors to determine whether the plaintiff should receive fees.” Batton v. I.R.S., 718 F.3d 522, 525 (5th Cir.
2013) (quoting Brayton v. Office of the U.S. Trade Representative, 641 F.3d 521, 524 (D.C. Cir. 2011)).

App. 19
1.

Whether a pro se attorney-litigant is eligible to
recover attorney’s fees under FOIA.

USCIS’s first objection to the magistrate judge’s
Report and Recommendation presents a threshold
question of whether Gahagan, who is an attorney proceeding in this litigation pro se, is precluded from recovering attorney’s fees under FOIA. USCIS submits
that the Supreme Court has ruled that an attorney litigant proceeding pro se cannot recover attorney’s fees
under a fee-shifting statute, 42 U.S.C. § 1988 similar to
FOIA’s, and that, in so ruling, the Supreme Court implicitly overruled Fifth Circuit precedent that previously held that pro se attorneys may recover attorney’s
fees under the FOIA fee-shifting provision. The Court
agrees.
USCIS objects to the magistrate judge’s finding
that Gahagan was not disqualified from recovering attorney’s fees simply because he represented himself. In
so finding, the magistrate judge rejected USCIS’s argument that, as a matter of law, Gahagan cannot be
awarded attorney’s fees because he is a pro se attorneylitigant. In footnote 1 of the Report and Recommendation, the magistrate judge noted that this Court is
“bound by Fifth Circuit precedent indicating that
FOIA attorney’s fee provision is subject to a different
analysis than that expressed in Kay and that under
such analysis, a pro se attorney can obtain attorney’s
fees in a FOIA action.”
To support its contention that the magistrate
judge erred in finding that Mr. Gahagan is eligible

App. 20
to recover attorney’s fees, USCIS invokes Kay v. Ehrler,
499 U.S. 432, 438 (1991). There, the Supreme Court
held that a pro se attorney is not entitled to an award
of attorney’s fees under the fee-shifting provision of
the Civil Rights Act, 42 U.S.C. § 1988. The high court
reasoned that “the overriding statutory concern is the
interest in obtaining independent counsel for victims
of civil rights violations” and that “Congress was interested in ensuring the effective prosecution of meritorious claims.” Id. at 437-38. In fashioning the bright
line rule, the unanimous Court observed that neither
the text of the statute nor its legislative history provided a clear answer to the question it faced; the Court
underscored that “the word ‘attorney’ assumes an
agency relationship, and it seems likely that Congress
contemplated an attorney-client relationship as the
predicate for an award under § 1988.” Id. at 437. Thus,
after examining the words and purpose of the fee-shifting statute, the Court embraced the rule precluding
awards of counsel fees to pro se litigants. Id. (“A rule
that authorizes awards of counsel fees to pro se litigants – even if limited to those who are members of the
bar – would create a disincentive to employ counsel
whenever such a plaintiff considered himself competent to litigate on his own behalf. The statutory policy
of furthering the successful prosecution of meritorious
claims is better served by a rule that creates an incentive to retain counsel in every such case.”).
Notably, in Kay, the Supreme Court observed that
the district court and Sixth Circuit had denied the petitioner’s request for attorney’s fees under Section

App. 21
1988 by relying in part on a FOIA case, Falcone v. IRS,
714 F.2d 646 (6th Cir. 1983), cert. denied, 466 U.S. 908
(1984).2 In affirming, a unanimous Supreme Court
cited with approval to Falcone, the FOIA case, observing:
In Falcone, the Court of Appeals declined to
award attorney’s fees to a pro se attorney in a
successful action under the Freedom of Information Act (FOIA), 5 U.S.C. § 552. The Court
of Appeals reasoned that attorney’s fees in
FOIA actions were inappropriate because the
award was intended “to relieve plaintiffs
with legitimate claims of the burden of legal
costs” and “to encourage potential claimants
to seek legal advice before commencing legislation.” 714 F.2d at 647. The court relied on
the fact that “[a]n attorney who represents
himself in litigation may have the necessary
2

The Sixth Circuit affirmed the district court “based upon
our rejection in Falcone of the proposition that opportunity costs
constitute actual pecuniary losses for which a pro se attorney deserves compensation.” 900 F.2d 967, 971 (6th Cir. 1990). Indeed,
the Sixth Circuit in Kay stated it was “bound to follow the rationale of Falcone” as equally applicable to section 1988 cases. Id.
(“Assuming that Kay spent hours prosecuting this case that he
could have billed to clients, he has only failed to add to the wealth
of private practice. He has not incurred any expenses for legal
representation, and, therefore, he cannot recover under section
1988. Falcone is a FOIA CASE, but that does not distinguish it
from this appeal. Were we to hold that Kay’s opportunity costs
constituted pecuniary losses, when we had previously held that
Falcone’s opportunity costs were not, we would begin classifying
opportunity costs as legal expenses based upon the substance of
the pro se claim. We find no authority for awarding fees based on
such a system.”).

App. 22
legal expertise but is unlikely to have the ‘detached and objective perspective’ necessary to
fulfill the aims of the Act.” Ibid. (citation omitted).
Kay, 499 U.S. at 1436 n.4. In so observing, “Kay implicitly rejected a distinction between fee claims arising
under section 1988 and FOIA.” See Burka v. U.S. Dept.
of Health and Human Services, 142 F.3d 1286, 1289
(D.C. Cir. 1998); see also Benavides v. Bureau of Prisons, 993 F.2d 257, 259 (D.C. Cir.) (finding that Kay was
binding on the issue of attorney’s fees in FOIA cases
because the Supreme Court had implicitly rejected a
distinction between fee claims arising under section
1988 and FOIA), cert. denied, 510 U.S. 996 (1993).
Courts have uniformly embraced the bright line
rule of Kay, applying it with equal force beyond Section
1988 to preclude the award of attorney’s fees to attorney-litigants seeking to recover attorney’s fees similarly provided by other federal fee-shifting statutes,
notably, including FOIA. See, e.g., Ray v. United States
Dept. of Justice, 87 F.3d 1250, 1252 (11th Cir. 1996)
(finding that the fee shifting provision of section 1988
and FOIA are substantially similar, and the policies
underlying the statutes are the same, and concluding
that “the principles announced in Kay apply with
equal force in this case to preclude the award of attorney’s fees Ray seeks for his own work.”). Indeed, since
Kay was decided, “virtually all other courts that have
considered this issue . . . have reached a similar conclusion.” Burka v. U.S. Dept. of Health and Human Services, 142 F.3d 1286, 1289 (D.C. Cir. 1998) (“It is

App. 23
obvious . . . that the Supreme Court intended its ruling
[in Kay] to apply beyond section 1988 cases to other
similar fee-shifting statutes, particularly the one in
FOIA. It is, in short, impossible to conclude otherwise
than that pro se litigants who are attorneys are not entitled to attorney’s fees under FOIA.”).3
There is one post-Kay circuit decision, however,
that approvingly referenced its pre-Kay precedent
(which had held that lawyers who represent themselves in FOIA actions may recover under the fee-shifting provision) and noted, in dicta, that any FOIA
complainant who has actually and reasonably incurred
legal fees (including a lawyer who is a plaintiff ) is included in the class of complainants eligible to recover
under the FOIA fee-shifting provision. That outlier position is occupied by the Fifth Circuit. See Texas v. Interstate Commerce Commission (ICC), 935 F.2d 728
(5th Cir. 1991). Notably, however, the Fifth Circuit
failed to discuss (or even mention) Kay when it decided
ICC, raising doubts about whether or not the Fifth Circuit or the attorneys involved in the case considered
Kay at all, both of which were decided in 1991.
To determine whether, as USCIS submits, the
Court should apply the bright line rule of Kay to
3

Underscoring that Kay’s reasoning is not confined to Civil
Rights Attorney’s Fees Awards Act cases, in addition to applying
the rule of Kay to FOIA’s fee-shifting provision, courts have applied it to deny fees to pro se lawyers under the Equal Access to
Justice Act, SEC v. Price Waterhouse, 41 F.3d 805, 808 (2d Cir.
1994) and to the common fund doctrine, Zucker v. Westinghouse
Elec., 374 F.3d 221, 228-29 (3d Cir. 2004).

App. 24
preclude as a matter of law Gahagan’s attorney fee
award, the Court must examine both Cazalas v. United
States Dept. of Justice, 709 F.2d 1051 (5th Cir. 1983),
which was decided eight years before Kay, and Texas v.
Interstate Commerce Commission, 935 F.2d 728 (5th
Cir. 1991), which was decided just three months after.
Eight years before Kay, in Cazalas, the Fifth Circuit
“confront[ed] an issue of first impression[ ], namely
whether an attorney litigant proceeding pro se is entitled to an award of attorney fees under the FOIA.” 709
F.2d at 1055. “That a litigant attorney represents herself or himself,” the 2-1 panel held, “does not preclude
an award of attorney fees under the FOIA.” Id. at
1057.4 In reaching its decision, the court noted that: it
had previously held that FOIA precluded an award of
attorney fees to a pro se litigant who was not an attorney; circuit courts had not come to a definitive resolution on the issue, in particular, that the Fourth Circuit
had declined to award attorney’s fees to pro se attorneys in a Truth-in-Lending Act proceeding, but the
Ninth Circuit had granted attorney fees to a defendant
in a Civil Rights Attorney’s Fees Awards Act case; and
FOIA’s legislative history indicates a “strong national
policy of open government and the crucial role that attorney fees play in protecting this interest.” Id. at 105557. Dissenting from the majority’s holding that an attorney litigant proceeding pro se is eligible for an attorney fee award under FOIA, Judge Garwood focused
4

Cazalas was decided 2-1, with Judge Garwood dissenting
from the majority’s conclusion that an attorney litigant proceeding pro se is eligible for an award of attorney fees under the FOIA.

App. 25
on the text of the statutory fee provision and underscored that Congress did not intend to discriminate between pro se FOIA litigants solely on the basis of
whether they were licensed to practice law. Id. at 105960 (Garwood, J., dissenting). Judge Garwood wrote
that: (i) the plain text of the statute (allowing recovery
only for “attorney fees . . . incurred” by the litigant)
“contemplate[s] . . . a situation where services are performed for the litigant by some other person” and (ii)
the court’s prior precedent “was . . . influenced by reading the Privacy Act and the FOIA attorney fees provisions as allowing recovery only for ‘attorney fees . . .
incurred’ by the litigant.” Id. Judge Garwood reasoned
that “the statutory wording plainly contemplates payment for services rendered to the litigant by someone
else, not payment for what the litigant does for himself.” Id.
The question becomes whether the Cazalas holding survived Kay. Reading Kay and circuit court case
literature that expressly considered its impact demonstrates that Kay implicitly overruled Cazalas. The Supreme Court’s express holding in Kay is clear: pro se
attorney litigants are not entitled to attorney’s fees under the fee shifting provision of the Civil Rights Attorney’s Fees Awards Act of 42 U.S.C. § 1988. In reaching
this conclusion, the Supreme Court found it necessary
to look beyond the statutory text (and its legislative
history), given that on the one hand attorneys proceeding pro se are nevertheless “attorneys” within the
meaning of the statute, but on the other hand that the
word “attorney” necessarily assumes an agency, or

App. 26
attorney-client, relationship as a predicate for an
award under the fee shifting provision. Kay, 499 U.S.
at 435-36. Indeed, the high court observed:
In the end, we agree with the Court of Appeals
that the overriding statutory concern is the
interest in obtaining independent counsel for
victims of civil rights violations. We do not,
however, rely primarily on the desirability of
filtering out meritless claims. Rather, we
think Congress was interested in ensuring the
effective prosecution of meritorious claims.
Even a skilled lawyer who represents himself
is at a disadvantage in contested litigation. . . . The adage that “a lawyer who represents himself has a fool for a client” is the
product of years of experience by seasoned litigators.
A rule that authorizes awards of counsel fees
to pro se litigants even if limited to those who
are members of the bar would create a disincentive to employ counsel whenever such a
plaintiff considered himself competent to litigate on his own behalf. The statutory policy of
furthering the successful prosecution of meritorious claims is better served by a rule that
creates an incentive to retain counsel in every
such case.
Id. at 436-437.
Thus, the Supreme Court held that an attorney
who represents himself in a successful civil rights action may not be awarded reasonable attorney’s fees as

App. 27
part of the costs. What the Supreme Court impliedly
held is equally clear: the same bright line rule applies
to attorneys representing themselves in successful actions based on similar federal fee-shifting statutes fulfilling similar statutory policies. Statutes like FOIA.
That the Supreme Court affirmed and acknowledged
the district court’s and Sixth Circuit’s reliance on the
Sixth Circuit ruling in Falcone, a FOIA case, to reach
its conclusion in Kay, the Civil Rights Act fee-shifting
case, reinforces this Court’s (and other circuit courts’)
findings that Kay implicitly overruled cases (like Cazalas) holding that attorney litigants are eligible to recover attorney’s fees in successful FOIA cases. Id. at
435 n.4 (citing Falcone v. IRS, 714 F.2d 646 (6th Cir.
1983), cert. denied, 466 U.S. 908 (1984)).
The glitch with this Court’s finding that Kay implicitly overruled Cazalas becomes apparent when the
Court considers a Fifth Circuit panel’s remarks in a
case decided mere months after Kay, Texas v. Interstate Commerce Commission, 935 F.2d 728 (5th Cir.
1991). There, the panel considered whether a State
could be considered a “complainant” eligible to recover
attorney fees under FOIA and, deciding that question
in the affirmative, went on to consider whether the
State of Texas was entitled to attorney fees where it
provided no benefit to the public and none of the other
discretionary criteria supported a fee award, and, finally, whether the State was entitled to receive attorney fees and costs under FOIA from a private party. Id.
at 732-34. In other words, there was no attorney proceeding pro se in ICC; the issues presented to the ICC

App. 28
panel were distinct from the issue confronted by Cazalas, Kay, and this Court. The ICC panel did not need
to determine what this Court must: whether an attorney proceeding pro se may recover attorney’s fees under the fee-shifting provision of FOIA.
Nevertheless, in examining the district court’s decision to deny Texas’s motion for attorney fees under
FOIA, the Fifth Circuit panel observed that in support
of the district court decision, “the district court cited
several decisions that in dicta discuss the purposes of
the FOIA attorneys-fee provision.” Id. at 730 and 731
n.8 (noting that the district court found dicta in Cazalas “especially compelling”). Without mentioning or
acknowledging the Supreme Court decision in Kay decided just three months prior, the Fifth Circuit reiterated its holding in Cazalas that lawyers who represent
themselves in FOIA actions may recover under the feeshifting provision. But the issue of whether a pro se
attorney may recover fees in a successful FOIA lawsuit
was not presented to the ICC panel. In holding that the
State of Texas was eligible to recover attorney fees under FOIA, the panel goes on to observe:
In sum, if a FOIA plaintiff has actually and
reasonably incurred legal fees–that is, a
lawyer has handled his case, even if the lawyer is the plaintiff himself–and if the plaintiff
substantially prevailed, he may recover reasonable attorneys fees from the federal government, provided that the court finds that
the four discretionary criteria are satisfied.
Any complainant who meets these conditions
is included within the language of the statute.

App. 29
No class of complainants–not even state governments–is excluded.
Id. at 731-32. The Court need not determine how to reconcile ICC’s remarks about Cazalas in light of Kay because ICC’s mere reiteration of Cazalas’s holding that
a lawyer who is a plaintiff himself is eligible for attorney’s fees under FOIA is dicta.5 To be sure, the Court
is not bound by the Fifth Circuit’s dicta in the face of
Supreme Court precedent to the contrary. Having
found that Kay implicitly overruled the holding of Cazalas, that the ICC panel mentioned Cazalas’s holding
(a holding that was not essential to ICC’s holding)6
does not resurrect the holding of Cazalas.
In other words, the issues presented to and the
holdings derived from Cazalas and ICC were distinct.
By implicitly rejecting a distinction between fee claims
5

The Fifth Circuit instructs that:
A statement is dictum if it could have been deleted
without seriously impairing the analytical foundations
of the holding and being peripheral, may not have received the full and careful consideration of the court
that uttered it. A statement is not dictum if it is necessary to the result or constitutes an explication of the
governing rules of law.
Netsphere, Inc. v. Baron, 799 F.3d 327, 333 (5th Cir. 2015) (citation omitted).
6
In reaching its holding that state governments qualify as
“complainants” under FOIA, the Fifth Circuit underscored that
the statutory language was “clear,” but noted that, even if it was
“less clear,” the legislative history supported its holding that
Texas was eligible to recover attorney fees under FOIA. Again,
ICC cited to Cazalas, which had “summarized the ‘raison d’etre’
of the fee-shifting provision.”

App. 30
arising under section 1988 and FOIA, Kay implicitly
overruled Cazalas’s explicit holding; but neither Kay’s
implicit holding nor Cazalas’s explicit holding were an
issue presented in ICC. Insofar as ICC can be read to
reinforce Cazalas’s holding post-Kay, it was unnecessary to resolve any of the issues presented in ICC. Indeed, the ICC panel itself noted that the district court
had relied on cases discussing the purposes of FOIA,
characterizing those discussions as dicta. See ICC, 935
F.2d at 730 and 731 n.8 (noting that the district court
found dicta in Cazalas “especially compelling”). Had
ICC confronted the implication of Kay on Cazalas (and
the Court can only speculate as to the short duration
of time between the issuance of Kay and ICC as to why
it did not),7 the holding reached by the ICC panel
would remain undisturbed: state governments are not
categorically excluded as “complainants” under FOIA
and, therefore, in appropriate circumstances may be
awarded attorney’s fees. An issue presented neither to
the Supreme Court in Kay nor to this Court. Thus, insofar as ICC’s dicta (to reach its holding on a distinct
issue) contradicts an implicit holding of the Supreme
Court as well as express holdings of the Fifth Circuit’s
sister circuit (Ray v. U.S. Dept. of Justice, 87 F.3d 1250
7

Counsel for USCIS submits that the timing of the Kay and
ICC decisions explains why ICC failed to address Kay: neither the
attorneys nor the panel knew that the Kay opinion had been rendered because the cases were decided so close in time. Kay was
argued on February 25, 1991 and decided on April 16, 1991, just
three months before ICC was decided on July 18, 1991. Even
though ICC was decided after Kay, USCIS urges the Court to consider Kay intervening precedent.

App. 31
(11th Cir. 1996)), as well as other Circuits (see, e.g.,
Pietrangelo v. U.S. Army, 568 F.3d 341 (2d Cir. 2009);
Burka v. U.S. Dept. of Health and Human Services, 142
F.3d 1286 (D.C. Cir. 1998)), the Court is not bound by
ICC’s dicta.8
The only Fifth Circuit case to acknowledge the discrepancy between Cazalas and Kay is an unpublished
opinion issued 17 years ago in which the Fifth Circuit
assumed without deciding that Kay controls, but refused to reconcile the inconsistency. See Chin v. United
States Dept. of Air Force, 220 F.3d 587 (5th Cir. 2000).
There, Douglas Chin, “the real party in interest” filed
a FOIA lawsuit against the Air Force. Chin and his attorney, Carlton Folsom, were both plaintiffs in the lawsuit.9 Because “Folsom was clearly acting on behalf of
Chin and not on behalf of himself,” the Fifth Circuit
found that it was clear error for the district court to
deny attorney’s fees on the basis that Folsom was appearing pro se; in so doing, the Fifth Circuit assumed
without deciding that Kay overruled Cazalas and controlled the issue presented. Id. (“We need not decide
whether Cazalas[ ] is rendered moribund by Kay[ ]. Assuming, arguendo that [Kay] controls, . . . .”). Because
8

That Kay’s bright line rule applies beyond the Civil Rights
Act context is clear. The Supreme Court has noted that Kay’s interest “in having a party represented by independent counsel
even when the party is a lawyer” is not limited to the Civil Rights
Act, but is “systemic.” McNeil v. United States, 508 U.S. 106, 113
n.10 (1993) (Federal Tort Claims Act case).
9
Folsom, the attorney, joined as a party in the lawsuit only
after the defendant sought to avoid the lawsuit on the grounds of
standing.

App. 32
Kay implicitly overruled Cazalas, insofar as Mr.
Gahagan is appearing pro se, Kay’s bright line rule applies, rendering him ineligible to recover attorney’s
fees in this FOIA case.10
Two issues remain:
2.

Whether the magistrate judge erred in
finding the existence of a public benefit
and in weighing the entitlement factors.

3.

Whether a more substantial reduction in
Gahagan’s fee award is warranted due to
absence of billing judgment.

Having determined that Mr. Gahagan is ineligible
to recover attorney’s fees under Kay, the Court need
not reach USCIS’s objection regarding whether the
magistrate judge erred in finding a public benefit and
in weighing entitlement factors. However, insofar as
Mr. Gahagan might be eligible to recover costs, the
Court leaves undisturbed the magistrate judge’s finding as to the existence of a public benefit and in weighing entitlement factors. USCIS’s objection to the
magistrate judge’s finding of a public benefit and
weighing of the entitlement factors is OVERRULED
and the Court adopts the Report and Recommendation
as necessary to support an award of costs under 5
10

Mr. Gahagan has contended in this proceeding that he
brought this FOIA litigation on behalf of a client he represents in
immigration removal proceedings. But this does not alter the fact
that his client is not named as the real party in interest (see Fed.
R. Civ. P. 17(a)), nor does it alter the fact that Mr. Gahagan is, by
definition, a pro se attorney-litigant, rendering him ineligible for
attorney’s fees. See Burka, 142 F.3d at 1290-91.

App. 33
U.S.C. § 552(a)(4)(E)(i).11 Having determined that Mr.
Gahagan is ineligible to recover attorney’s fees under
Kay, the Court need not reach USCIS’s final objection
seeking a more substantial reduction in Gahagan’s attorney fee award.
Although the Court finds that Mr. Gahagan is not
eligible to recover attorney’s fees under Kay, considering this Court’s prior rulings as to eligibility as well as
its de novo review of the magistrate judge’s thorough
consideration of Mr. Gahagan’s eligibility and entitlement to costs, Mr. Gahagan may recover $451.47 in
costs under 5 U.S.C. § 552(a)(4)(E)(i).12
*

*

*

Accordingly, for the foregoing reasons, IT IS ORDERED: that USCIS’s objection to the magistrate
judge’s finding that Mr. Gahagan is eligible for attorney’s fees under ICC is hereby SUSTAINED and the
magistrate judge’s Report and Recommendation is REJECTED in part, but USCIS’s objection to the magistrate judge’s finding as to the existence of a public
benefit and in weighing entitlement factors is OVERRULED and the magistrate judge’s Report and Recommendation is ADOPTED in part. Finally, USCIS’s
objection concerning the quantum of attorney’s fees is
11

5 U.S.C. § 552(a)(4)(E)(i) provides:
The court may assess against the United States reasonable attorney fees and other litigation costs reasonably incurred in any case under this section in which
the complainant has substantially prevailed.
12
It is undisputed that Mr. Gahagan incurred costs in the
amount of $451.47.

App. 34
MOOT. Thus, IT IS FURTHER ORDERED: that Mr.
Gahagan’s motion for attorney’s fees is DENIED, but
his request for costs is GRANTED. Mr. Gahagan is entitled to recover $451.47 in costs under 5 U.S.C.
§ 552(a)(4)(E)(i).
New Orleans, Louisiana, September 12th, 2017
/s/

Martin L. C. Feldman
MARTIN L. C. FELDMAN
UNITED STATES DISTRICT JUDGE

App. 35
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
MICHAEL W. GAHAGAN *
*
VERSUS
*
UNITED STATES
*
CITIZENSHIP AND
*
IMMIGRATION SERVICES *
*
*
*
* * * * * * * * * *

CIVIL ACTION NO.
16-15438
SECTION: “F”(1)
JUDGE MARTIN L. C.
FELDMAN
MAGISTRATE JUDGE
JANIS VAN
MEERVELD

REPORT AND RECOMMENDATION
(Filed Apr. 27, 2017)
The District Court referred plaintiff Michael
Gahagan’s Motion for Attorney’s Fees and Costs
(Rec. Doc. 43) to the undersigned Magistrate Judge
on March 8, 2017, in its Order denying the motion for
reconsideration and motion for summary judgment
filed by defendant United States Citizenship and Immigration Services (Rec. Doc. 63). For the following
reasons, IT IS RECOMMENDED that the Motion be
GRANTED in part.
Background
Michael Gahagan is an immigration attorney. He
represents a client in connection with that client’s removal proceedings. He says he does so on a pro bono
basis. As explained by the District Court, Gahagan

App. 36
maintains that United States Citizenship and Immigration Services (“USCIS”) has already ruled that his
client has a bona fide marriage with a United States
citizen, making the client eligible for lawful Permanent
Resident status. Gahagan insists that to apply for Permanent Resident status during the course of a removal
proceeding, he must file a copy of the client’s Form I485 Receipt Notice (I-797C, Notice of Action) (“Receipt
Notice”). On June 19, 2016, Gahagan (and not his client) filed a request to USCIS for a copy of his client’s
Receipt Notice pursuant to the Freedom of Information
Act (“FOIA”). USCIS acknowledged receipt of his request. On October 11, 2016, Gahagan had not received
a production of records, a Vaughn index describing
search methods and explaining the lawful basis for
each exemption for any documents withheld, or a final
disposition from USCIS stating that it had not found
any records, so he filed the present lawsuit. (Rec. Doc.
1).
On November 18, 2016, Gahagan had still not received records, a Vaughn index, or a final disposition
from USCIS, so he filed a motion for summary judgment asking the Court to order that USCIS conduct an
adequate search and produce all non-exempt responsive records (Rec. Doc. 6). At some point before filing its
opposition to Gahagan’s motion for summary judgment, USCIS obtained a copy of the Receipt Notice
sought by Gahagan. USCIS takes the position that the
Receipt Notice was recreated. It appears that on or
about November 29, 2016 (the day before USCIS’s opposition memorandum was filed), counsel for USCIS

App. 37
attempted to email an unredacted copy of the Receipt
Notice to Gahagan. (Rec. Doc. 33). In opposition to the
motion for summary judgment, USCIS argued that it
had satisfied its obligation by providing a “functional
equivalent” to the Receipt Notice sought by Gaghagan [sic].
USCIS also argued that its search was adequate and
submitted three sworn declarations. As observed by
the District Court in partially granting Gahagan’s motion for summary judgment, the declaration of Jill A.
Eggleston represented that if the Receipt Notice was
available, it would be located in the client’s A-file. The
declarations of Monica Martinez represented that
there is no database that retains copies of Receipt Notices, that USCIS does not typically retain copies of Receipt Notices, and that a search of USCIS’s Computer
Linked Application Information System (“CLAIMS”)
database would not and did not reveal any Receipt Notices. Ms. Martinez also attested that if a new Receipt
Notice is needed, one can be generated from the information in the CLAIMS database.
The District Court concluded that this evidence
would typically be sufficient to prove that USCIS
had conducted an adequate search. Critically, however,
the declarations were called into question by an earlier
declaration that Ms. Eggleston had submitted regarding Receipt Notices in a different case. There, Ms.
Eggleston stated that USCIS had been “able to retrieve an archive copy of the [Receipt Notice] that was
generated by the [CLAIMS] database automatically
when USCIS initially received a copy of Plaintiff ’s
application.” Concluding that Ms. Eggleston’s earlier

App. 38
declaration indicating that it would be possible to find
an archived copy of a Receipt Notice conflicted with Ms.
Martinez’s declaration that it would not be possible,
the District Court ordered USCIS to conduct a supplemental search of CLAIMS. (Rec. Doc. 31, at 15). The
District Court also ordered USCIS to explain the conflicting declarations and ordered both parties to brief
the issue of whether a “functional equivalent” record
would satisfy USCIS’s obligations under FOIA. Because Gahagan represented that he had not received
an unredacted copy of the recreated Receipt Notice, the
District Court further ordered that USCIS produce an
unredacted copy of the recreated Receipt Notice to
Gahagan within 24 hours. The District Court issued its
ruling on December 14, 2016.
In response to the District Court’s Order, USCIS
filed a supplemental memorandum in which it represented that the supplemental search had been performed and no original Receipt Notice had been found.
USCIS also attempted to explain the discrepancies
questioned by the District Court by presenting the declaration of a third USCIS representative, Sabrina Kenner, who stated that CLAIMS does not archive or store
documents, and can only regenerate a Receipt Notice.
USCIS argued that the “apparent discrepancy” between Ms. Eggleston’s two declarations was due to
“technical language” used. USCIS says that when Ms.
Eggleston stated that a Receipt Notice had been generated, she should have said a “new” Receipt Notice
had been generated and that Ms. Eggleston’s use of the
phrase “archived copy” was imprecise because it was a

App. 39
regenerated Receipt Notice. On December 22, 2016, the
District Court ruled that USCIS had satisfied its obligation to perform a supplemental search. Observing
that Gahagan had agreed to accept the recreated Receipt Notice, the District Court denied the remaining
issues of Gahagan’s motion for summary judgment as
moot. (Rec. Doc. 42).
On January 4, 2017, Gahagan filed a motion for
attorney’s fees. USCIS then filed a motion for summary judgment seeking dismissal of Gahagan’s claims
and a ruling that USCIS had conducted an adequate
search. USCIS also filed a motion for reconsideration
of the District Court’s December 14, 2016, order granting partial summary judgment in favor of Gahagan. In
support of its motion for reconsideration, USCIS argued that the declaration of Sabrina Kenner submitted
on December 19, 2016, clarified that the agency never
keeps copies of Receipt Notices and such records can
only be recreated. The District Court denied both
USCIS motions and referred the motion for attorney’s
fees to the undersigned Magistrate Judge. (Rec. Doc.
63). In denying USCIS’s motion for reconsideration,
the District Court reiterated that it was USCIS’s burden to show that it had conducted an adequate search
and explained that the Court would “not reconsider its
prior ruling based on any clarity finally achieved only
after a Court-ordered search and submission that was
prompted by the agency’s own inadequate submission.” Id. at 7.

App. 40
Law and Analysis
Under FOIA, this court “may assess against the
United States reasonable attorney fees and other litigation costs reasonably incurred in any case under this
section in which the complainant has substantially
prevailed.”1 5 U.S.C. § 552(a)(4)(E)(i). Courts have interpreted this permissive, statutory language as creating a two-prong inquiry into whether the complainant
is both (1) eligible for attorney’s fees because he has
substantially prevailed and (2) entitled to attorney’s
fees considering “a variety of factors to determine

1

USCIS argues that Gahagan cannot be awarded attorney’s
fees because he is an attorney appearing pro se. See Kay v. Ehrler,
499 U.S. 432, 438 (1991) (holding that a pro se attorney is not
entitled to an award of attorney’s fees under 42 U.S.C. § 1988).
For example, in Burka v. U.S. Dep’t of Health & Human Servs.,
the D.C. Circuit Court of Appeals applied Kay to hold that “pro se
attorney-litigants are not entitled to attorney’s fees under the feeshifting provisions of FOIA.” 142 F.3d 1286, 1290 (D.C. Cir. 1998).
Three months after Kay was decided, the Fifth Circuit explained
that “if a FOIA plaintiff has actually and reasonably incurred legal fees—that is, a lawyer has handled his case, even if the lawyer
is the plaintiff himself—and if the plaintiff substantially prevailed, he may recover reasonable attorney’s fees from the federal
government, provided that the court finds that the four discretionary criteria are satisfied. State of Tex. v. I.C.C., 935 F.2d 728,
731–32 (5th Cir. 1991) (footnote omitted). USCIS urges that the
Fifth Circuit in I.C.C. did not mention Kay because the I.C.C. decision was rendered only three months after Kay and that although issued before I.C.C., Kay should nonetheless be considered
intervening precedent. This Court is not free to make this determination and is instead bound by Fifth Circuit precedent indicating that the FOIA attorney’s fee provision is subject to a different
analysis than that expressed in Kay and that under such analysis, a pro se attorney can obtain attorney’s fees in a FOIA action.

App. 41
whether the plaintiff should receive fees.”2 Batton
v. I.R.S., 718 F.3d 522, 525 (5th Cir. 2013) (quoting
2

Gahagan insists that the two pronged eligibility-entitlement test was superseded by the OPEN Government Act of 2007
(“OGA”) and that he is entitled to attorney’s fees as long as he
substantially prevailed and his claim is not insubstantial. As Batton made clear, OGA codified the “catalyst” theory, pursuant to
which a complainant can show he substantially prevailed in the
absence of court ordered relief where the complainant has obtained relief by “a voluntary or unilateral change in position by
the agency, if the complainant’s claim is not insubstantial.” 718
F.3d at 525. This change concerned the eligibility prong. The entitlement prong stems from the fact that a court “may assess,” but
is not required to assess attorney’s fees where a complainant has
substantially prevailed. Brayton v. Office of the U.S. Trade Representative, 641 F.3d 521, 524 (D.C. Cir. 2011) (“The eligibility
prong asks whether a plaintiff has ‘substantially prevailed’ and
thus ‘may’ receive fees.”). The “may assess” portion of the statute
was unchanged by OGA. In Batton, the Fifth Circuit Court of Appeals recognized the continued applicability of the two pronged
test by employing it. Gahagan spent nine pages of his memorandum in support arguing that he is entitled to attorney’s fees
without consideration of the “entitlement prong” and failed to
mention that three weeks prior to the filing of this motion, the
Fifth Circuit Court of Appeals rejected this argument in a case
in which Gahagan was also the plaintiff. See Gahagan v. United
States Citizenship & Immigration Servs., No. 16-30882, 2016
WL 7240202, at *1–2 (5th Cir. Dec. 14, 2016) (unpublished).
Gahagan’s attempt in reply to explain this omission by noting
that the Fifth Circuit case is unpublished is disingenuous. In addition to finding that Gahagan had waived the argument that the
eligibility-entitlement test was superseded by OGA, the Fifth Circuit held that his argument was “foreclosed by our precedent” and
that “we are obligated to follow Batton.” Id. The Batton opinion
was issued by the Fifth Circuit as a published decision eight years
after OGA, and it is binding precedent on the courts of this district
until the Fifth Circuit en banc, the Supreme Court, or an Act of
Congress says otherwise. While Gahagan is welcome to challenge
that precedent here to preserve it for appeal, the appropriate

App. 42
Brayton v. Office of the U.S. Trade Representative, 641
F.3d 521, 524 (D.C. Cir. 2011)).
A. Eligibility
“[A] complainant has substantially prevailed if the
complainant has obtained relief through either--(I) a
judicial order, or an enforceable written agreement or
consent decree; or (II) a voluntary or unilateral change
in position by the agency, if the complainant’s claim is
not insubstantial.” 5 U.S.C. § 552(a)(4)(E)(ii); see Batton, 718 F.3d at 525.
The Court finds that Gahagan substantially prevailed under either theory. First, the District Court’s
December 14, 2016, Order held that the USCIS search
was inadequate and ordered USCIS to produce the Receipt Notice to Gahagan. USCIS submits that this order does not demonstrate that Gahagan substantially
prevailed. As an initial matter, since the filing of the
Motion for Attorneys’ Fees and USCIS’s opposition, the
District Court has denied USCIS’s motion for reconsideration of the December 14, 2016, Order. Thus, the December 14, 2016, Order in Gahagan’s favor remains
in place. Further, this Court cannot accept USCIS’s
method to do so would be to raise the contrary authority and distinguish it or otherwise argue why it should not apply here. As
pointed out by USCIS, the Louisiana Rules of Professional Conduct require lawyers to disclose “legal authority in the controlling
jurisdiction known to the lawyer to be directly adverse to the position of the client.” See La. Rules of Prof. Conduct 3.3(a)(2). The
Court cautions Gahagan to be mindful of his obligations to this
tribunal.

App. 43
argument that its supplemental declarations show
that its search was adequate. Not only does the undersigned find that the supplemental declarations fail to
fully clarify the search undertaken by USCIS,3 the District Court has already rejected this argument in denying the motion for reconsideration. USCIS adds that it
delivered the Receipt Notice prior to the December 14,
2016, Order. That position remains disputed (and
moreover, as addressed below, does not preclude this
Court’s finding that Gahagan substantially prevailed).
USCIS also argues that the District Court’s order that
a search be performed is insufficient to result in eligibility for attorney’s fees. This argument is unavailing
because not only did the District Court order a search
here, it also ordered production of a USCIS record
when the Court required that “not later than 5:00 p.m.
twenty-four hours from receipt of this Order and Reasons, counsel for USCIS shall produce to the plaintiff
the unredacted recreated Receipt Notice.” (Rec. Doc.
31, at 18).

3

The most recent declaration claims that the discrepancies
between Ms. Eggleston’s and Ms. Kenner’s declarations “can be
attributed to the use of technical language” by Ms. Eggleston in
saying that USCIS could “retrieve an archive copy” of the Receipt
Notice “that was generated.” Instead, Ms. Kenner maintains, Ms.
Eggleston should have said that USCIS could generate a new Receipt Notice. The most recent declaration might be more convincing if it was Ms. Eggleston who explained her error. Instead,
USCIS expects this Court to believe that the most recent declaration by a new individual is more accurate than previous sworn
statements made by agency representatives. See also the Court’s
concerns expressed in footnote 4 regarding other unexplained inconsistencies.

App. 44
Moreover, even if Gahagan had not substantially
prevailed as a result of the Court’s order, it is clear that
USCIS produced the Receipt Notice as a result of this
lawsuit. Prior to the filing of the lawsuit, Gahagan had
waited nearly four months without receiving a substantive response to his FOIA request. Two weeks after he filed his motion for summary judgment, USCIS
began attempting to deliver a copy of the Receipt Notice. There is simply no other conclusion but that this
lawsuit was required to cause USCIS to deliver the Receipt Notice, particularly given USCIS’s position taken
in its brief, that at least in this case, USCIS’s regeneration of the Receipt Notice was “voluntary” and done
“merely as a service to the applicant,” but that actually,
USCIS “was not required to do so.” (Rec. Doc. 50, at 7).
Despite locating and producing a document it had
heretofore refused to either find or produce, USCIS attempts to argue that it never “changed its position” in
response to Gahagan’s suit because the original Receipt Notice “was not and cannot be found.” This argument is absurd. Gahagan requested “a copy of ” his
client’s I-797C Receipt Notice. Whether an archived
copy, a printed version of an electronic record, or a recreated record,4 the Receipt Notice delivered as a result
4

As a result of the five sometimes conflicting declarations of
three different USCIS representatives, (Rec. Doc. 18-3, 28-1, 282, 35-1; Gahagan v. United States Citizenship and Immigration
Servs., Civil Action 15-796, Rec. Doc. 8-2 (E.D. La. May 5, 2015)),
the Court remains unable to fully understand the record keeping
practices of USCIS. These are but some of the questions the Court
is left with after five declarations and the government’s briefs:
•
Is it true that USCIS does not maintain copies of records that appear to be crucial to certain immigration

App. 45

•

•

•

proceedings? For example, is there really no copy of the
I-797C, Notice of Action, kept anywhere, either as a
photocopy, as an electronic copy, or in an archive? If
not, why does Ms. Eggleston continue to advise that
such a document could possibly be found in the applicant’s A-file? “Upon reviewing the request for the I797C receipt notice, NRC concluded that if the record
were available, it would be located in an A-file at the
USCIS’ National Records Center in Lee’s Summit, Missouri.” (Rec. Doc. 28-2, ¶ 10) (emphasis added.)
Does the “recreation” process simply amount to printing a paper copy of an electronic record? If so, is the
new printed version properly classified as a “recreated”
record?
If Ms. Martinez is right in her Supplemental Declaration (Rec. Doc. 28-1, ¶ 4) that CLAIMS provides the biometric data that can be used to recreate an I-797C,
does the I-797C repopulate automatically with necessary data from either the I-485 or other data input at
the time the I-485 is received? If so, does commanding
the computer to auto-populate and produce an I-797C
constitute a “recreation” just because that same command was previously given, but the resulting paper
copy got lost in the mail or by the applicant?
Is there any way for an applicant to obtain a lost I797C? Like the government’s brief insisting that
USCIS was under no obligation to provide Gahagan
with a duplicate of this form, Sabrina Kenner’s declaration offers little hope of obtaining a replacement to
the applicant who has lost or never received their I797C. “USCIS does not generally send duplicate Receipt Notices if they have not been returned as undeliverable. Applicants can inquire about the acceptance
of cases by contacting USCIS at Lockboxsupport@
dhs.gov.” (Rec. Doc. 35-1, ¶ 7) This representation was
similarly made by Monica Martinez. (Rec. Doc. 18-3,
¶ 4). Thus, while Ms. Martinez and Ms. Kenner reassure the Court that “I-797C Receipt Notices can be recreated by USCIS” (Rec. Doc. 18-3, ¶ 5) it would seem

App. 46
of this lawsuit was a copy of the Receipt Notice that
Gahagan requested pursuant to FOIA. His willingness
to accept the record indicates as much. USCIS asserts
that because it was not obligated to recreate the record,5 it went “above its required duties” by doing so.
USCIS seems to threaten that an award of attorney’s
fees would discourage such allegedly cooperative behavior in the future. USCIS fails to comprehend that
it could have precluded an attorney’s fees award by
exceedingly unlikely that, short of a court order, any
applicant would be able to prevail upon USCIS to provide
them with the “recreated” form. It is little consolation,
then, that “[a]n I-797C Receipt Notice regenerated by
CLAIMS 3 will serve in all respects as an original Receipt Notice.” (Id. ¶ 8) After all, if filing a FOIA request
and even a lawsuit requesting production of the I-797C
meets with no success, what chance does an applicant
or lawyer have in posting a request to Lockboxsupport@dhs.gov?
Given the apparent importance of an I-797C to clients like
Gahagan’s in this case—as a form of proof that the client should
not be removed as he was eligible for permanent resident status
by virtue of his valid marriage to a U.S. citizen--surely there must
be a mechanism for obtaining a substitute of this document, and
one that does not merely rely on the good will of USCIS. If this
case has proven anything, it is that at least when it comes to record keeping and record production, USCIS is not a “steward of
good government practices” as it claimed in support of its supposed generosity in providing Gahagan, at long last, with the document he sought for many months. (Rec. Doc. 50, at 8. The
District Court similarly took issue with USCIS’s record keeping
practices and its due diligence in responding to FOIA requests.
(Rec. Doc. 63, at 9-10, fn. 2). Numerous other courts have been
similarly critical. Id.
5
As further explained in footnote 4, supra, the Court is not
convinced that printing out a Receipt Notice amounts to “recreation.”

App. 47
delivering a copy of the Receipt Notice before this lawsuit was filed.
Gahagan substantially prevailed under either theory and he is eligible for attorney’s fees.
B. Entitlement
Under the “entitlement” prong, the Court considers: “(1) the benefit to the public deriving from the case;
(2) the commercial benefit to the complainant; (3) the
nature of the complainant’s interest in the records
sought; and (4) whether the government’s withholding
of the records had a reasonable basis in law.” Batton,
718 F.3d at 527 (quoting I.C.C., 935 F.2d at 730).
“The factor of “public benefit” does not particularly
favor attorneys’ fees where the award would merely
subsidize a matter of private concern; this factor rather
speaks for an award where the complainant’s victory
is likely to add to the fund of information that citizens
may use in making vital political choices.” Blue v. Bureau of Prisons, 570 F.2d 529, 533–34 (5th Cir. 1978).
In Blue, the Fifth Circuit agreed with the district court
that this factor weighed against an award of attorney’s
fees where the plaintiff had sought production of his
prison file. Like the prisoner seeking his personal file,
Gahagan’s request for the Receipt Notice from his client’s A-File is primarily for his client’s personal use in
the client’s immigration proceedings. See Gahagan v.
United States Citizenship & Immigration Servs., No.
CV 15-796, 2016 WL 3127209, at *4 (E.D. La. June 3,
2016), aff ’d, No. 16-30882, 2016 WL 7240202 (5th Cir.

App. 48
Dec. 14, 2016) (considering the same cases cited by
Gahagan here and finding that the public benefit factor weighed against an award of attorney’s fees because “the I-485 receipt notice will not assist citizens
in making vital political choices in any conceivable
way”). But, the Court finds that there is some public
benefit to this litigation: Gahagan has flushed out
USCIS’s untenable position that although a copy of a
Receipt Notice may be critical to halting a deportation
proceeding, USCIS is neither obligated to maintain
copies of the Receipt Notices it issues, nor is it obligated to “recreate” such Receipt Notices under FOIA.
The information revealed by the present litigation may
assist others “making vital political choices.” Blue, 570
F.2d at 534; see Mayock v. I.N.S., 736 F. Supp. 1561,
1564 (N.D. Cal. 1990) (finding the public benefit of establishing pattern and practice of Immigration and
Naturalization Services not complying with FOIA outweighed the commercial interest of the attorney in the
records). Accordingly, the Court finds that this factor
weighs in favor of an award of attorney’s fees.
The “commercial interest” factor has minimal applicability here. Gahagan says that he represents his
client on a pro bono basis. Accordingly, he does not obtain a direct financial benefit from making the FOIA
request. While it is true that, as USCIS argues,
Gahagan has a financial interest in effectively representing his client and maintaining his law practice,
which he is able to do in part through this FOIA
request, the Court finds this tangential commercial

App. 49
benefit is not the type of commercial benefit that
weighs against an award of attorney’s fees.
The nature of Gahagan’s interest weighs in favor
of attorney’s fees. He sought the Receipt Notice for use
in his client’s immigration proceeding. The Court is
disturbed by USCIS’s argument that attorney’s fees
should be precluded here because they amount to an
end run around the discovery in that immigration proceeding. While FOIA requests are not rewarded with
attorney’s fee awards when they attempt to substitute
for civil discovery, this is simply not the case here. The
email correspondence submitted by USCIS in its supplemental memorandum (Rec. Doc. 33-1) confirms
Gahagan’s position that USCIS will not produce a Receipt Notice except through a FOIA request. Indeed, as
Judge Brown observed, “there is no right to discovery
in deportation proceedings.” Gahagan v. United States
Citizenship & Immigration Servs., No. CV 14-2233,
2016 WL 1110229, at *13 (E.D. La. Mar. 22, 2016).
Gahagan’s request is not an end run around the discovery process, but instead amounts to the sole way in
which Gahagan can protect his client’s interest in a
fair immigration proceeding.
The conduct of USCIS in withholding the Receipt
Notice also favors an award of attorney’s fees. USCIS
has attempted to explain the basis for originally failing
to produce the Receipt Notice with its most recent declaration stating that USCIS does not keep copies of Receipt Notices. As the Court observed in footnote 4, in
light of the conflicting declarations that USCIS has
submitted to this and other courts, it remains unclear

App. 50
whether the electronic information used to “recreate”
the Receipt Notice amounts to a record that USCIS
was required to produce or not. As the District Court
observed in denying the motion for reconsideration, it
is “USCIS’s own sloppy approach . . . and the confusion
created by its own personnel” that has created this situation. Moreover, as the District Court noted, USCIS
has been reprimanded in earlier cases for submitting
misleading and inadequate declarations and for its internal oversights, yet it continues to submit such declarations. In one such case, Judge Africk concluded
that “[w]hether blunder or subterfuge, [this] is the
kind of recalcitrant and obdurate conduct that merits
attorney’s fees.” Dasilva v. U.S. Citizenship & Immigration Servs., No. CIV A 13-13, 2014 WL 775606, at *7
(E.D. La. Feb. 24, 2014), aff ’d (Dec. 19, 2014) (second
alteration in original, internal quotation marks omitted). Here too, the Court finds that the actions of
USCIS in delaying delivery of the Receipt Notice and
its failure to adequately explain itself call for an award
of attorney’s fees.
Because the third and fourth factors strongly
weigh in favor of an award of attorney’s fees, the first
factor weighs slightly in favor of an award and the second factor is neutral or weighs slightly against an
award of attorney’s fees, the Court finds that Gahagan
is entitled to attorney’s fees in this case.

App. 51
C. Calculating Reasonable Attorney’s Fees
The standard two-step process to determine reasonableness of attorney’s fees is applicable in FOIA
cases. DaSilva v. U.S. Citizenship & Immigration
Servs., 599 F. App’x 535, 541 (5th Cir. 2014). First, the
Court computes the lodestar “by multiplying the number of hours reasonably expended by the prevailing
hourly rate in the community for similar work.” Matter
of Fender, 12 F.3d 480, 487 (5th Cir. 1994); see Hensley
v. Eckerhart, 461 U.S. 424, 433, 103 S. Ct. 1933, 1939,
76 L. Ed. 2d 40 (1983) (“The most useful starting point
for determining the amount of a reasonable fee is the
number of hours reasonably expended on the litigation
multiplied by a reasonable hourly rate.”). The party requesting fees bears the burden of proving that the
rates charged and hours expended are reasonable. See
Blum v. Stenson, 465 U.S. 886, 896 n.11 (1984); Walker
v. U.S. Dep’t of Hous. & Urban Dev., 99 F.3d 761,
770 (5th Cir. 1996); Louisiana Power & Light Co. v.
Kellstrom, 50 F.3d 319, 324 (5th Cir. 1995). “The court
then adjusts the lodestar upward or downward depending upon the respective weights of the twelve factors set forth in Johnson v. Georgia Highway Express,
Inc., 488 F.2d 714, 717-19 (5th Cir.1974).” Fender, 12
F.3d at 487. The Johnson factors are:
1) time and labor required, (2) novelty and difficulty of the issues, (3) skill required to perform the legal services properly, (4) preclusion
of other employment, (5) customary fee, (6)
whether the fee is fixed or contingent, (7) time

App. 52
limitations imposed by client or circumstances, (8) amount involved and results obtained, (9) experience, reputation and ability
of the attorneys, (10) undesirability of the
case, (11) nature and length of the professional relationship with the client, and (12)
award in similar cases.
Id.
1. Hourly Rate
“ ‘[R]easonable’ hourly rates ‘are to be calculated
according to the prevailing market rates in the relevant community.’ ” McClain v. Lufkin Indus., Inc., 649
F.3d 374, 381 (5th Cir. 2011) (quoting Blum v. Stenson,
465 U.S. 886, 895–96 (1984)). The party claiming attorney’s fees has the burden to prove the requested rates
satisfy this test. Id. Courts have required attorneys to
produce both their own affidavits regarding their customary fees and evidence that these rates are “in line
with those prevailing in the community for similar services by lawyers of reasonably comparable skill, experience and reputation.” Blum v. Stenson, 465 U.S. 886,
896 n. 11 (1984); see Louisiana Power & Light Co. v.
Kellstrom, 50 F.3d 319, 328 (5th Cir. 1995) (“To determine reasonable rates, a court considers the attorneys’
regular rates as well as prevailing rates.”); Yelton v.
PHI Inc., No. CIV.A. 09-04182, 2012 WL 3441826, at *4
(E.D. La. Aug. 14, 2012) (“Satisfactory evidence of
the reasonableness of the rate necessarily includes an
affidavit of the attorney performing the work and

App. 53
information of rates actually billed and paid in similar
lawsuits.”).
Gahagan graduated from Barry University
Dwayne O. Andreas School of Law in 2006. It is unclear
when he began practicing law, but he has been doing
so since at least November 2007 as owner of The Immigration Law Firm of New Orleans. He says he has
represented hundreds of clients in all areas of immigration law and has represented more than 100 clients
with FOIA requests. He has been selected as a Rising
Star by Super Lawyers magazine in 2015, 2016, and
2017. Gahagan argues that a rate of $300 per hour is
appropriate for his work in this matter. In his sworn
declaration, he states that this is his “normal billing
rate.”
Gahagan also submits the sworn declarations of
five attorneys who say they are personally familiar
with Gahagan’s qualifications. Robert Pauw, an attorney barred in Washington State, declares that
Gahagan is the only attorney he knows that pursues
FOIA litigation for immigration clients in the Eastern
District of Louisiana and that his rate of $300 is a reasonable market rate for a case “of this complexity.”
(Rec. Doc. 43-14, at 3). Local attorneys Bradley Egenberg, Christine DeSue, Richard Schulze, and Donglai
Yang assert similar conclusions, but each add that he
or she is familiar with rates charged by law firms in
Louisiana that handle FOIA litigation outside of federal court. (Rec. Doc. 57-1). Raymond Lahoud, an immigration attorney practicing in New York also states
that he would not handle a case like this for less than

App. 54
$300 per hour, that he is not aware of any other immigration litigation specialist who could competently
handle a matter like this one, that he is familiar with
the rates Louisiana law firms charge for FOIA cases
outside of federal court, and that $300 per hour is a
reasonable market rate for Gahagan. Id. Gahagan also
cites a FOIA case where Judge Barbier awarded fees
at a rate of $300 per hour to an attorney with eight
years of experience in immigration and employment
litigation. Hernandez v. U.S. Customs & Border Prot.
Agency, Civ. Act. No. 10-4602, 2012 WL 398328, at *16
(E.D. La. Feb. 7, 2012).
USCIS counters that Gahagan’s rate should be adjusted to $200 because in 2014, Judge Africk found that
a rate of $200 was more appropriate. DaSilva v. U.S.
Citizenship & Immigration Servs., Civ. Act. No. 13-13,
2014 WL 775606, at *9 (E.D. La. Feb. 24, 2014), aff ’d
(Dec. 19, 2014) (holding that Gahagan had failed to advise the court of his experience with FOIA requests,
rather than immigration law, and concluding that a
rate of $200 reflected his seven years of experience in
immigration law). The Fifth Circuit affirmed that decision, noting that the award in Hernandez, where an
attorney with eight years of experience had been
awarded $300 per hour, “appeared to be atypically
high.” DaSilva v. U.S. Citizenship & Immigration
Servs., 599 F. App’x 535, 543 (5th Cir. 2014). In 2016,
Judge Brown considered affidavits similar to those
presented here and cited DaSilva in adjusting the rate
to be awarded to Gahagan to $200 per hour. Gahagan

App. 55
v. United States Customs & Border Prot., No. CV 142619, 2016 WL 3090216, at *14 (E.D. La. June 2, 2016).
While Gahagan has submitted declarations of
other attorneys attesting to the reasonableness of a
rate of $300 per hour, none of these declarations state
that such a fee is the market rate for the type of litigation pursued by Gahagan here. Indeed, they all note
that Gahagan is the only attorney who does such work.
Gahagan has submitted a declaration that $300 is his
normal rate, but he has not specified whether this is
his normal rate for FOIA litigation or in handling immigration proceedings. In this case, he is doing the
work pro bono and, significantly, he has not stated
whether he has been able to command a fee for similar
FOIA litigation in other cases. The Court recognizes
that Gahagan has pursued many FOIA immigration
related cases in this district. However, his growing experience in this area does not justify a fee of $300 per
hour. The Court takes note that the Fifth Circuit just
recently observed that a rate of $300 for an attorney
with eight years’ experience was atypically high and
affirmed a rate of $200 as reasonable for Gahagan. In
light of this, because there is no evidence of the market
rate in this community for this type of work, because
the Fifth Circuit affirmed a $200 per hour fee for this
same lawyer in 2014, and because as recently as 2016
Judge Brown awarded Gahagan $200 per hour for similar work, the Court finds that a downward adjustment
to $200 is appropriate. DaSilva, 599 F. App’x at 543;
Gahagan, 2016 WL 3090216, at *14.

App. 56
2. Hours Reasonably Expended
Gahagan submits billing records showing that he
spent 59 hours on this litigation. The Court provides a
copy of those billing records, along with the recommended reductions below. USCIS argues these
amounts should be reduced as follows:
•

Gahagan billed a total of 2.6 hours for receiving and reviewing notices of electronic filing.
Dasilva, 2014 WL 1819753, at *4 (observing
that “billing relative to notices of electronic filing is patently unwarranted”). The Court
finds that some, but not all, of the 6 minute
time entries for review of electronic notices
are excessive and should be removed.

•

Gahagan billed 1.2 hours for driving to the
court to hand deliver documents when this
could have been done electronically or by use
of a courier. Hagan v. MRS Assocs., Inc., No.
CIV. A. 99-3749, 2001 WL 531119, at *9 (E.D.
La. May 15, 2001), aff ’d sub nom. Hagan v.
M.R.S. Assocs., Inc., 281 F.3d 1280 (5th Cir.
2001) (“A prevailing plaintiff should not recover an attorney rate for work that clerical
staff could have easily accomplished, regardless of who actually performed the work”). The
Court agrees that Gahagan cannot charge an
attorney’s rate for delivering papers to the
Court.

•

The motion for entry of default (for which he
bills 3.3 hours) was ultimately unsuccessful,
was frivolous, and was unrelated to the substance of his claim. Elec. Privacy Info. Ctr. v.

App. 57
U.S. Dep’t of Homeland Sec., 811 F. Supp. 2d
216, 238 (D.D.C. 2011) (“[T]he court will not
compensate for ‘nonproductive time or for
time expended on issues on which [the] plaintiff ultimately did not prevail. . . .’ ”) (quoting
Weisberg v. U.S. Dep’t of Justice, 745 F.2d
1476, 1499 (D.C. Cir. 1984)). The Court agrees
and will not reward such aggressive litigation
tactics. Indeed, the motion for entry of default
(on the basis of USCIS’s failure to file a responsive pleading) was filed on the same day
USCIS moved to withdraw its motion to dismiss (which it had filed 11 days earlier). Accordingly, Gahagan could not legitimately
have believed that USCIS was failing to defend the claim and would not appear to challenge the entry of default. Indeed, USCIS filed
its answer the day after withdrawing its motion to dismiss. Given the posture of the case,
the Court agrees that spending 3.3 hours on
the motion was a needless expense that did
not advance Gahagan’s case. He cannot recover for the preparation of this motion.
•

USCIS provided a copy of the Receipt Notice
on November 29, 2016, and any work after
that date should be disallowed. According to
Gahagan, however, he had not received the
unredacted Receipt Notice until December 14,
2016. Further, USCIS fails to mention that besides filing a reply in further support of his
pending motion for summary judgment, the
only motion filed by Gahagan after November 29, 2016, was this motion for attorney’s
fees (Gahagan does not appear to seek reimbursement for the filing of his Motion for

App. 58
Clarification). It was USCIS that filed a motion for reconsideration and motion for summary judgment. Gahagan was obligated to
respond. Gahagan’s hours will not be reduced
on the basis of the delivery of the Receipt Notice, especially where much of the subsequent
work was necessitated by USCIS’s filings.
•

Gahagan billed .3 for review of USCIS’s answer, including reviewing cases cited although there were no cases cited. The Court
finds that .3 is not an unreasonable amount of
time to review the answer, even if no cases are
cited.

•

Gahagan billed .5 for review of USCIS’s motion for leave to file a supplemental declaration and to “review and research citations”
where no such citations were contained in the
pleading. The Court agrees that .5 is not a reasonable amount of time to review this form
pleading and that reducing this time to .3 is
sufficient for the time Gahagan would have
spent reviewing and analyzing the declaration attached to the pleading.

•

Gahagan’s pleadings and motions in his other
FOIA cases are similar or identical to those
filed here and Gahagan filed statements of uncontested facts when he was not required to
do so. In reply, Gahagan indicates that he has
agreed to voluntarily reduced [sic] the total
hours by 20% “to account for any possible redundant research and writing in his pleadings.”
(Rec. Doc. 57-5). The Court finds this proposal
sufficient to address the similarities with

App. 59
Gahagan’s other pleadings. After the reductions described above and as provided in the
table below, the remaining 52.6 hours shall be
reduced by 20%. Accordingly, under the lodestar, Gahagan would be compensated for
42.08 hours at $200 per hour for a total of
$8,416.
[Tables Omitted]
3. Johnson Factors
USCIS argues that only the second, fourth, eighth
and twelfth Johnson factors were not addressed in the
lodestar analysis and these factors militate in favor of
a further reduction of the attorney’s fee award.
Gahagan submits that the Johnson factors support the
requested award. The Court has already considered
the time and labor required (factor 1); novelty and difficulty of the issues (factor 2); skill required to perform
the legal services properly (factor 3); customary fee
(factor 5); whether the fee is fixed or contingent (factor
6); experience, reputation, and ability of the attorney
(factor 9); and awards in similar cases (factor 12).
Gahagan argues that this representation precluded
him from taking other work that could command a
$5,000 fee (factor 4). It appears Gahagan has made this
same argument in other cases before this Court. The
claim is unsubstantiated. Further, because Gahagan
has repeatedly referred to his FOIA cases taking away
from other work commanding a $5,000 fee, the Court
cannot determine whether it was the work in this case
in particular that resulted in Gahagan turning away

App. 60
paying work. This factor does not favor an increase.
The Court takes note of the time limitations imposed
by the client (factor 7) because the Receipt Notice was
needed in Gahagan’s client’s removal proceedings. This
factor helps explain why aggressive litigation was necessary to enforce FOIA and supports the Court’s award
above, although it does not justify an increase. USCIS
argues that the results obtained (factor 8) favor a reduction in the award, but the Court disagrees because
through this litigation, Gahagan was able to obtain the
document he needed and was looking for. This factor
supports the award above, but does not favor an increase. Gahagan notes the undesirability of this case
because he was required to go through this costly litigation to obtain a document for his client’s immigration proceedings. As with factor 7, while this supports
the award, it does not merit an increase. Unlike the
civil rights litigation Gahagan cites, Gahagan has not
vindicated a constitutional right through this action.
As to factor 11, the nature and length of professional
relationship with the client, Gahagan notes simply
that he represented his client pro se. The Court finds
this factor does not bear on the award here.
The Johnson factors support the award discussed
above, but do not require an increase or decrease.
Accordingly, the Court finds that Gahagan is entitled
to the attorney’s fees calculated using the lodestar
($8,416) plus his costs (which USCIS does not appear
to dispute) of $451.47, for a total award of $8,867.47.

App. 61
RECOMMENDATION
Accordingly, IT IS RECOMMENDED that the Motion for Attorney’s Fees and Costs (Rec. Doc. 43) be
GRANTED in part and USCIS be ordered to pay
Gahagan $8,867.47.
OBJECTIONS
A party’s failure to file written objections to the
proposed findings, conclusions and recommendations
in a magistrate judge’s report and recommendation
within fourteen (14) calendar days after being served
with a copy shall bar that party, except upon grounds
of plain error, from attacking on appeal the unobjectedto proposed factual findings and legal conclusions accepted by the district court, provided that the party
has been served with notice that such consequences
will result from a failure to object. Douglass v. United
Servs. Auto. Ass’n, 79 F.3d 1415, 1430 (5th Cir. 1996)
(en banc).
New Orleans, Louisiana, this 27th day of April,
2017.
/s/ Janis van Meerveld
Janis van Meerveld
United States Magistrate Judge

App. 62
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
MICHAEL GAHAGAN

CIVIL ACTION

VERSUS

NO: 13-5526

UNITED STATES DEPARTMENT SECTION: “N” (3)
OF JUSTICE, ET AL.
ORDER AND REASONS
(Filed Sep. 20, 2017)
Presently before the Court is “Plaintiff ’s Motion
for Attorney’s Fees and Costs Pursuant to the Open
Government Act of 2007, 5 U.S.C. §552(a)(4)(E)” (Rec.
Doc. 50). As reflected in the record of this matter, Plaintiff seeks an award of attorney’s fees and costs relative
to the requests for information he previously submitted, pursuant to the Freedom of Information Act
(“FOIA”), 5 U.S.C. § 552, et seq., to Defendants United
States Department of Justice (“DOJ”), United States
Department of Homeland Security (“DHS”), United
States Immigration and Customs Enforcement (“ICE”),
and the Department of Justice’s Executive Office for
Immigration Review (“EOIR”). The Court previously
resolved those requests in three Orders and Reasons
(Rec. Docs. 31, 38, and 47), which denied in part and
granted in part four motions for summary judgment
filed by Plaintiff (Rec. Docs. 10, 32, 33, and 41). Following entry of judgment (Rec. Doc. 49), Plaintiff filed the
instant motion.

App. 63
Having carefully reviewed the parties’ submissions and applicable law, the Court finds Plaintiff ’s requests for attorney’s fees to be precluded, as a matter
of law, for the reasons set forth in Judge Feldman’s
September 12, 2017 Order and Reasons (Rec. Doc. 82)
in Gahagan v. United States Citizenship and Immigration Servs., Civil Action No. 16-15438, 2017 WL
4003851 (“F”) (E.D. La. Sept. 12, 2017). In short, as
thoroughly explained in Judge Feldman’s opinion, the
Court is compelled to conclude that attorney’s fees are
not available to a pro se plaintiff even if he or she is a
licensed attorney-at-law.
On [sic] other hand, however, the Court finds
Plaintiff to be eligible for and entitled to an award of
costs, as requested by him, in the amount of $506.65.
The relief previously granted to Plaintiff in the form of
additional details regarding the nature and scope of
the searches that were conducted by the DOJ and ICE,
along with the additional, more extensive searches ordered by the Court, satisfy the “substantially prevailed”
eligibility requirement. See 5 U.S.C. §552(a)(4)(E)(ii);
see also, e.g., Batton v. I.R.S., 718 F.3d 522, 525-26 (5th
Cir. 2013). Further, given the record in this matter, the
Court finds the relevant entitlement factors sufficiently weigh in Plaintiff ’s favor for purposes of a cost
award. See, e.g., Batton, 718 F.3d at 527 (district courts
are to consider (1) the benefit of the case to the public;
(2) the commercial benefit to the plaintiff; (3) the nature of the plaintiff ’s interest in the records sought;
and (4) whether government’s withholding of records
had reasonable basis in law).

App. 64
In support of this conclusion, the Court notes that
Plaintiff ’s FOIA requests sought the production of records for use in responding to a June 5, 2014 disciplinary complaint made against him, by DOJ Attorney
Jennifer Barnes, to the Louisiana Attorney Disciplinary Board. Upon completing its investigation, the
Louisiana Office of Disciplinary Counsel dismissed the
complaint for lack of clear and convincing evidence of
unethical conduct. See Rec. Doc. 30-1. Although Plaintiff certainly had a personal and commercial interest
in obtaining the requested information, the public’s interests in the administration of justice and the availability of experienced immigration lawyers likewise
were served by Plaintiff ’s pursuit of judicial relief relative to his FOIA request and by the Court’s resulting
directives. Plaintiff ’s information requests and this litigation also have provided important information to
the public regarding the pertinent departments’ record-keeping systems and clarified necessary search parameters and protocol.
Finally, the limited extent of DOJ’s and ICE’s initial search efforts were not reasonable under the circumstances presented here. Indeed, as reflected in the
multiple motions, memoranda, declarations, and Court
orders docketed in the record of this matter, ensuring
that appropriate document production and search efforts were made in response to Plaintiff ’s FOIA request required the exhaustion of far more of the
Court’s and the parties’ limited resources than should
have been necessary.

App. 65
Accordingly, as set forth herein, IT IS ORDERED
that Plaintiff ’s motion is DENIED IN PART and
GRANTED IN PART. Specifically, the motion is denied relative to attorney’s fees, but granted with respect to Plaintiff ’s request that he be awarded costs in
the amount of $506.65.
New Orleans, Louisiana, this 20th day of September 2017.
/s/ Kurt D. Engelhardt
KURT D. ENGELHARDT
United States District Judge

App. 66
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
MICHAEL W. GAHAGAN

CIVIL ACTION

VERSUS

NO. 15-6218

UNITED STATES CITIZENSHIP
AND IMMIGRATION SERVICES,
ET AL.

SECTION A(3)

ORDER AND REASONS
(Filed Dec. 21, 2017)
The following motion is before the Court: Motion
for Attorney’s Fees (Rec. Doc. 110) filed by plaintiff
Michael Gahagan. Defendants United States Citizenship and Immigration Services (“USCIS”) and United
States Customs and Border Protection (“CBP”) (at
times collectively “Defendants” or “the Government”)
oppose the motion. The motion, scheduled for submission on December 13, 2017, is before the Court on the
briefs without oral argument.
This Freedom of Information Act (“FOIA”) case
involves a dispute between Michael W. Gahagan, an
immigration attorney, and the defendant federal agencies. Gahagan submitted two FOIA requests in his own
name to Defendants seeking the production of agency
records for use in representing one of his clients in
pending removal proceedings. Gahagan filed FOIA requests with USCIS and CBP on July 27, 2015 and July
29, 2015, respectively, seeking specific agency records.
Gahagan’s allegation with respect to both agencies is

App. 67
that they refused to conduct a legally adequate search
responsive to his FOIA requests, refused to produce all
responsive agency records in their possession, and
failed to produce a legally adequate Vaughn index.
(Rec. Doc. 1, Complaint ¶¶ 21 & 25). Gahagan prayed
for declaratory and injunctive relief in order to obtain
the agency documents responsive to his FOIA requests
as well as attorney’s fees. (Id. ¶ 35). (Rec. Doc. 53,
Court’s Order and Reasons at 1-2).
Following several rounds of motions, the case was
concluded via a final judgment on November 3, 2017.
Gahagan now moves for attorney’s fees and costs
in the amount of $23,211.90 pursuant to 5 U.S.C.
§ 552(a)(4)(E)).
The Court may assess against the United States
attorney’s fees and litigation costs reasonably incurred
in a FOIA case in which the complainant has substantially prevailed. 5 U.S.C. § 552(a)(4)(E)(i). A complainant has substantially prevailed if he has obtained
relief through either a judicial order or a voluntary
or unilateral change in position by the agency if
the complainant’s claim is not insubstantial. Id.
§ 552(a)(4)(E)(ii)(I-II).
As to attorney’s fees, this Court finds persuasive
the thorough opinion recently authored by Judge Feldman in which he concluded that Gahagan could not, as
a pro se attorney, recover attorney’s fees under the
FOIA. Gahagan v. USCIS, No. 16-15438, 2017 WL
4003851 (E.D. La. Sept. 12, 2017). Chief Judge Engelhardt has also adopted this opinion when holding that

App. 68
Gahagan cannot collect attorney’s fees as a matter of
law. Gahagan v. USCIS, No. 13-5526, 2017 WL
4168409 (E.D. La. Sept. 20, 2017). The request for attorney’s fees is denied.
The Court notes, however, that both Judge Feldman and Judge Engelhardt awarded Gahagan the litigation costs that he requested. The amount of costs
requested in this case totals $1,341.90.
The Government suggests that the timing of the
FOIA productions in this case was consistent with
mere routine administrative processing delays as opposed to having been catalyzed by the filing of this lawsuit. In fact, the Government adds that Gahagan’s
aggressive litigation tactics more likely than not
caused additional delays in production.
The Court is persuaded that Gahagan is entitled
to litigation costs. The FOIA requests at issue in this
case were submitted on July 27, 2015 and July 29,
2015. Gahagan did not race to the courthouse but instead filed his Complaint on November 22, 2015, which
was four months after submitting his FOIA requests,
and after having received no records from either of the
defendant agencies. Based on the chronology of the record productions, see Rec .Doc. 110-2 at 7 n.7, the Court
finds it more likely than not that the lawsuit served as
a catalyst for at the very least the earlier record productions. Plaintiff ’s claim was not insubstantial.
That said, the Court has no reason to question the
Government’s assertion that a legally adequate search
would have been conducted and the records would

App. 69
have been produced ultimately following the attendant
administrative delays. The Court therefore sees no
reason that the printing costs for the various record
productions, which presumably are borne by the requesting party under FOIA, should be foisted upon the
Government as a litigation cost. The Court deducts
those printing costs of $814.50 from the amount requested. The cost award will be $527.40, which more
accurately reflects the litigation costs incurred.
Accordingly, and for the foregoing reasons;
IT IS ORDERED that the Motion for Attorney’s Fees (Rec. Doc. 110) filed by plaintiff Michael
Gahagan is GRANTED IN PART AND DENIED IN
PART. The motion is denied as to the request for attorney’s fees and granted insofar as the Court awards
the plaintiff Michael Gahagan $527.40 in costs.
December 19, 2017
/s/ Jay C. Zainey
JUDGE JAY C. ZAINEY
UNITED STATES
DISTRICT JUDGE

App. 70
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 17-30898
-----------------------------------------------------------------------

MICHAEL W. GAHAGAN,
Plaintiff - Appellant
v.
UNITED STATES CITIZENSHIP &
IMMIGRATION SERVICES,
Defendant - Appellee

Consolidated with 17-30901
MICHAEL GAHAGAN,
Plaintiff - Appellant
v.
UNITED STATES DEPARTMENT OF JUSTICE;
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY; UNITED STATES IMMIGRATION
AND CUSTOMS ENFORCEMENT; EXECUTIVE
OFFICE OF IMMIGRATION REVIEW,
United States Department of Justice,
Defendants - Appellees

App. 71
Consolidated with 17-30999
MICHAEL W. GAHAGAN,
Plaintiff - Appellant
v.
UNITED STATES CITIZENSHIP & IMMIGRATION
SERVICES; U.S. CUSTOMS & BORDER PROTECTION,
Defendants - Appellees
-----------------------------------------------------------------------

Appeals from the United States District Court
for the Eastern District of Louisiana
-----------------------------------------------------------------------

(Filed Feb. 6, 2019)
ORDER:
IT IS ORDERED that appellant’s objection to appellees’ bill of costs is Granted.
/s/ Andrew S. Oldham
ANDREW S. OLDHAM
UNITED STATES
CIRCUIT JUDGE

App. 72
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 17-30898
-----------------------------------------------------------------------

MICHAEL W. GAHAGAN,
Plaintiff - Appellant
v.
UNITED STATES CITIZENSHIP &
IMMIGRATION SERVICES,
Defendant – Appellee

Consolidated with 17-30901
MICHAEL GAHAGAN,
Plaintiff - Appellant
v.
UNITED STATES DEPARTMENT OF JUSTICE;
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY; UNITED STATES IMMIGRATION
AND CUSTOMS ENFORCEMENT; EXECUTIVE
OFFICE OF IMMIGRATION REVIEW,
United States Department of Justice,
Defendants – Appellees

App. 73
Consolidated with 17-30999
MICHAEL W. GAHAGAN,
Plaintiff - Appellant
v.
UNITED STATES CITIZENSHIP & IMMIGRATION
SERVICES; U.S. CUSTOMS & BORDER PROTECTION,
Defendants - Appellees
-----------------------------------------------------------------------

Appeals from the United States District Court
for the Eastern District of Louisiana
-----------------------------------------------------------------------

ON PETITION FOR REHEARING EN BANC
(Filed Feb. 26, 2019)
(Opinion 12/20/18, 5 Cir., ___, ___ F.3d ___)
Before DAVIS, COSTA, and OLDHAM, Circuit Judges.
PER CURIAM:
(🗸) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled on
Rehearing En Banc (FED. R. APP. P. and 5TH CIR.
R. 35), the Petition for Rehearing En Banc is DENIED.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members

App. 74
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH CIR.
R. 35), the Petition for Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ Andrew S. Oldham
UNITED STATES CIRCUIT JUDGE

